D
I                                                          EMPLOYMENT AND
S
C
U
                                                           TRAINING
S
S
                                                           ADMINISTRATION
I
O
N            Office of Inspector General—Office of Audit
D
R
A
F
T




                                                           RECOVERY ACT: ETA NEEDS TO STRENGTHEN
                                                           MANAGEMENT CONTROLS TO MEET
                                                           YOUTHBUILD PROGRAM OBJECTIVES




                                                                               Date Issued:     March 31, 2011
02-A12-345-67-890                                                           Report Number:    18-11-001-03-001
                                                              March 2011
U.S. Department of Labor
Office of Inspector General                                   RECOVERY ACT: ETA NEEDS TO STRENGTHEN
Office of Audit                                               MANAGEMENT CONTROLS TO MEET YOUTHBUILD
                                                              PROGRAM OUTCOMES

BRIEFLY…                                                      WHAT OIG FOUND
                                                              ETA did not always ensure eligible participants received
Highlights of Report Number 18-11-001-03-001 to               allowable training and services. Officials at 10 of 27
the Assistant Secretary of Employment and                     grantees did not enroll eligible youth ages 16 to 17.
Training Administration, issued March 31, 2011.               Conversely, we estimate 20 percent of participants
                                                              served may be ineligible. We estimate $5.7 million of
WHY READ THE REPORT                                           direct program costs were expended on these
The Office of Inspector General (OIG) conducted a             potentially ineligible participants.
performance audit of Employment and Training
Administration’s (ETA) effectiveness in administering         ETA officials reported they met performance goals for
the YouthBuild program. The YouthBuild Transfer Act of        participants obtaining degrees/certificates, recidivism of
2006 transferred the program from the Department of           youth offenders, and literacy and numeracy gains.
Housing and Urban Development to DOL. The                     However, ETA did not meet program performance goals
YouthBuild program provides educational and job               for placement or retention. In addition, we estimate ETA
training opportunities within the construction industry for   and the grantees could not support the reported
at-risk youth who are ages 16-24, are school dropouts,        outcomes of 10 percent of the exiters.
and are disadvantaged.
                                                              Other deficiencies were identified in reporting
Since beginning the administration of the program, ETA        enrollment and exit data and in providing participants
has awarded 290 grants to 226 grantees totaling $280          with resources to obtain industry-recognized certificates
million. Of these grants, 75 were funded under the            after completing occupation skills training. Furthermore,
American Recovery and Reinvestment Act (ARRA) and             seven grantees could not demonstrate that they met the
215 were non-ARRA grants. As of March 31, 2010, ETA           25 percent matching funds requirement. We attributed
reported a total of 12,483 participant enrollments            these results to a lack of effective ETA and grantee
(enrollees) and 5,975 participants who exited (exiters)       oversight and inadequate policies and procedures.
the program.
                                                              Finally, based on our audit work, allegations against two
                                                              grantees could not be substantiated.
WHY OIG CONDUCTED THE AUDIT
We conducted the audit to answer the following
questions:
                                                              WHAT OIG RECOMMENDED
                                                              We recommended that the Assistant Secretary for ETA
                                                              determine how youth ages 16 to 17 are best served. In
1.		 Did ETA ensure eligible participants received
                                                              addition, ETA should develop and implement controls to
     allowable training and services?
                                                              ensure that program eligibility and reporting
                                                              requirements are met; grantee agreements include
2.		 Did ETA ensure YouthBuild program core
                                                              performance goals; participants receive industry-
     objectives and performance measures were met?
                                                              recognized certificates; and the increased number of
                                                              affordable permanent housing units is measured. We
3.		 Were allegations in the hotline complaints against
                                                              also questioned costs associated with ineligible
     two YouthBuild grantees valid?
                                                              participants and undocumented matching funds.
We sampled 543 participants served by 27 grantees
                                                              In response to our draft report, ETA generally agreed
and evaluated ETA’s controls for determining
                                                              with our findings and recommendations. However the
participants’ eligibility and reporting performance
                                                              Assistant Secretary stated local grantees have flexibility
outcomes.
                                                              under the YouthBuild Transfer Act and Solicitation for
                                                              Grant Applications to determine which ages among
READ THE FULL REPORT                                          eligible youth they will serve based upon locally
To view the report, including the scope, methodology,         determined factors. Also, these low-income youth may
and full agency response, go to:                              choose other options, such as WIA youth formula
http://www.oig.dol.gov/public/reports/oa/2011/18-             program services through the One-Stop Career Center
11-001-03-001.pdf                                             network in their local areas.
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                    Management Controls Need to be Strengthened
                                    Report No. 18-11001-03-001
                                                           U.S. Department of Labor – Office of Inspector General 





Table of Contents 

 Assistant Inspector General’s Report...................................................................... 1
	

 Results in Brief .......................................................................................................... 2
	

 Objective 1 — Did ETA ensure eligible participants received allowable training 

               and services?.................................................................................... 3
	
       Eligible participants were not always provided allowable training and 

       services, while other eligibility requirements could not be supported ................... 3
	

       Finding 1 — YouthBuild program could do more to provide opportunities to
                   Youth ages 16 to 17......................................................................... 4 

       Finding 2 — Grantees intake processing controls did not ensure sufficient
                   documentation was obtained to verify participants met
                   eligibility requirements. .................................................................... 4 


 Objective 2 — Did ETA ensure that YouthBuild core objectives and program 

               measures were met? ........................................................................ 7
	
       ETA’s controls were not effective for ensuring all core objectives and 

       program measures were met................................................................................ 7
	

       Finding 3 — ETA lacked effective controls to ensure that grantees met two
                    of five program performance measures. .......................................... 7
	
       Finding 4 — Improvements are needed to ensure that reported
                    performance data are accurate or supported................................... 8
	
       Finding 5 — Participants did not always receive industry-recognized
                    certificates after completing occupational skill training. ................... 9
	
       Finding 6 — ETA has not designed and implemented a process to
                    measure the increase in the supply of affordable homes for
                    low income families........................................................................ 10
	

 Objective 3 — Were allegations in the hotline complaints against two 

               YouthBuild grantees valid? ........................................................... 11
	

       Allegations of improprieties were not substantiated............................................ 11 

       Finding 7 — The allegations of improprieties against two YouthBuild 

                   grantees were not substantiated.................................................... 11
	
       Finding 8 — Grantees could not always demonstrate the 25 percent 

                   matching funds requirements were met......................................... 12
	


 Recommendations .................................................................................................. 14
	



                                                                   Management Controls Need to be Strengthened
                                                                                   Report No. 18-11001-03-001
                                                   U.S. Department of Labor – Office of Inspector General 





Exhibits
    Exhibit 1 List of Sampled Grantees Audited ....................................................... 17
	
    Exhibit 2 Grantees Who Excluded Youth Ages 16 to 17..................................... 19
	
    Exhibit 3 Attributes for Projections...................................................................... 21
	
    Exhibit 4 Schedule of Questioned Costs ............................................................ 23
	
    Exhibit 5 Grantees Who Did Not Meet Performance Goals ................................ 25
	
    Exhibit 6 Grantees Who Reported Inaccurate Performance Data or Lacked 

                   Support for Outcomes.................................................................... 27
	
    Exhibit 7 Grantees Who Could Not Demonstrate 25 Percent Match .................. 29
	

Appendices
    Appendix A Background ..................................................................................... 33
	
    Appendix B Objectives, Scope, Methodology, and Criteria ................................ 37
	
    Appendix C Acronyms and Abbreviations .......................................................... 41
	
    Appendix D ETA Response to Draft Report ....................................................... 43
	
    Appendix E Acknowledgements ......................................................................... 51
	




                                                           Management Controls Need to be Strengthened
                                                                           Report No. 18-11001-03-001
                                           U.S. Department of Labor – Office of Inspector General 



U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




March 31, 2011

                        Assistant Inspector General’s Report


Jane Oates
Assistant Secretary
for Employment and Training
U.S. Department of Labor
Room S2307
200 Constitution Avenue, NW
Washington, D.C. 20210

The Office of Inspector General conducted a performance audit of the Employment and
Training Administration’s (ETA) effectiveness in administering the YouthBuild program.
YouthBuild provides educational and job training opportunities within the construction
industry for at-risk youth who are ages 16-24, are school dropouts, and are members of
at least one of the disadvantaged groups (youth offender, foster youth, low-income
youth, youth who are individuals with disabilities, children of an incarcerated parent, or
migrant youth).

In September 2006, the YouthBuild Transfer Act of 2006 (Transfer Act) authorized a
transfer of the YouthBuild program to the Department of Labor (DOL). ETA administers
the program under a provision added to the Workforce Investment Act. The DOL
assumed grant administration for all DOL-awarded YouthBuild grants beginning in
Fiscal Year 2007. Since beginning the administration of the program, DOL has awarded
290 grants to 226 grantees totaling $280 million. Of these grants, 75 were funded under
the American Recovery and Reinvestment Act (ARRA) and 215 were non-ARRA grants.
As of March 31, 2010, ETA reported a total of 12,483 participant enrollments (enrollees)
and 5,975 participants who exited (exiters) the program.

We conducted the audit to determine whether (1) ETA ensured eligible participants
received allowable training and services; (2) ETA ensured that YouthBuild program core
objectives and performance measures were met; and (3) allegations in the hotline
complaints against two YouthBuild grantees were valid.

To accomplish our audit, we reviewed ETA’s practices, policies, and procedures for
administering the grant process. We sampled 543 participants (270 enrollees and 273
exiters) served by 27 grantees (see Exhibit 1) and reviewed documentation to evaluate
the adequacy of ETA controls for determining participant eligibility and reporting
performance outcomes. We analyzed grantee financial and performance data as well as
outcome measures.


                                                    Management Controls Need to be Strengthened
                                             1                      Report No. 18-11001-03-001
                                            U.S. Department of Labor – Office of Inspector General 



The audit covered the period July 1, 2007, through December 31, 2010. Audit work was
performed at grantee worksites in Alabama, California, Florida, Illinois, Massachusetts,
Mississippi, Oklahoma, and Rhode Island.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

Results In Brief

ETA did not always ensure eligible participants received allowable training and services.
Officials at 10 of 27 grantees did not enroll eligible youth ages 16 to 17 due to concerns
that these youth were more susceptible to worksite injury and had more limited
employment potential than older youth. Conversely, based on the results of our
statistical sample, we estimate that 2,534 (or 20 percent) of the 12,483 participants
served between July 1, 2007, and March 31, 2010, may be ineligible –– mostly due to
insufficient documentation to support their status as low income, disadvantaged, or
school dropout. We estimate $5.7 million of direct program costs were expended on the
potentially ineligible participants. Additionally, we estimate that 1,803 otherwise eligible
participants had not complied with Federal law requiring military selective service
registration.

ETA officials reported they met performance goals for participants obtaining
degrees/certificates, recidivism of youth offenders, and literacy and numeracy gains, but
did not meet program performance goals for placement or retention. Only 43 percent of
youth who exited the program were placed in jobs or other educational programs
compared to the goal of 70 percent; while 64 percent of those youth attaining placement
retained employment or stayed in school compared to the goal of 75 percent. There
were 10 of 14 (or 71 percent) grantees who had substantially completed their grants,
who did not meet placement performance goals as of December 31, 2010.

In addition, we estimate ETA and the grantees could not support the reported outcomes
for 605 of the total 5,975 (or 10 percent) participants who exited the program. There
were other deficiencies identified in reporting enrollment and exit data at 14 grantees,
as well as for 2 grantees that did not provide exiters with industry recognized certificates
after they completed occupational skills training. Furthermore, 7 grantees did not track,
report, or could not demonstrate that they met the 25 percent funds matching
requirement.

We attributed these results to a lack of effective grantee oversight and inadequate
policies and procedures. In addition, in reviewing ETA’s monitoring of grantee activities,
we found that required site visits were not consistently performed, and even when

                                                   Management Controls Need to be Strengthened
                                             2                     Report No. 18-11001-03-001
                                           U.S. Department of Labor – Office of Inspector General 



performed, did not detect weaknesses that directly impacted the program’s outcomes.
Furthermore, grant agreements did not always include performance goals and DOL has
not issued regulations for the program, which according to some grantees, contributed
to confusion and hampered them in meeting program requirements.

Finally, we evaluated eight allegations made in two hotline complaints. Based on our
audit work, the allegations could not be substantiated.

Recommendations

To better ensure the YouthBuild program meets program objectives, we recommended
that the Assistant Secretary for Employment and Training determine how youth ages 16
to 17 are best served. In addition, ETA should develop and implement controls to
ensure that program eligibility and reporting requirements are met; grantee agreements
include performance goals; participants receive industry recognized certificates after
completing occupation skills training; and the increased number of affordable
permanent housing units as a result of the program is measured. We also questioned
costs associated with ineligible participants.

In response to our draft report, the Assistant Secretary for ETA generally agreed with
the recommendations; however, she disagreed the program does not serve the 16 to 17
year old youth, stating that local grantees have flexibility under the YouthBuild Transfer
Act and Solicitation of Grant Application (SGA) to determine which ages among eligible
youth they will serve based upon locally determined factors, including safety concerns
and State compulsory education laws.

We acknowledge there are legitimate safety concerns for all youth on construction sites,
regardless of their age. We think the Act does consider safety as well as many other
factors and concluded youth ages 16 to 24 can participate effectively in the program. As
we noted, a third of the grantees in our sample intentionally excluded youth ages 16 to
17, and if left unchecked, other grantees could do the same without consequence. As a
result, youth ages 16 to 17 may suffer by being denied opportunities to obtain
educational and employment skills through the YouthBuild program. Overall, we believe
the report fairly presents program activities we reviewed.

The Assistant Secretary’s response is included in its entirety in Appendix D.

RESULTS AND FINDINGS

Objective 1 — Did ETA ensure eligible participants received allowable training
             and services?

      Eligible participants were not always provided allowable training and services,
      while other eligibility requirements could not be supported.




                                                  Management Controls Need to be Strengthened
                                            3                     Report No. 18-11001-03-001
                                                     U.S. Department of Labor – Office of Inspector General 



Finding 1 — YouthBuild program could do more to provide opportunities to Youth
            ages 16 to 17.

Officials at 10 of 27 1 (or 37 percent) grantees sampled excluded youth ages 16 to 17
from the YouthBuild program. Grantees who excluded youth ages 16 to 17 from the
program cited reasons such as (1) liability costs related to the increased potential for
youth to sustain worksite injuries, (2) the youth maturity level or life experience to
successfully complete the program, and (3) the difficulty of participants in meeting
certain performance benchmarks, especially job placements, retention, and passage of
the General Education Development (GED) exam.

ETA’s Solicitation for Grant Applications (SGA) allowed grantees to decide who to serve
within the youth group population without consequence for excluding specific members
of the youth population. The SGA states, “Organizations are not required to serve the
entire age group population between 16 and 24, but all participants must fall within this
range.” While not mentioned by grantees, ETA officials contend that workplace
restrictions hamper serving youth ages 16 to 17. For example, ETA officials pointed to
the National Institute for Occupational Safety and Health (NIOSH) 2 recommendations
that restrict the work of youth under the age of 18 on construction sites. In addition, ETA
officials indicated the Transfer Act does not require all youth within the age population to
be served in the program.

ETA identified 3,220 youth in the YouthBuild population (or approximately 25 percent of
our universe) who were ages 16 to 17. However, grantees that excluded youth ages 16
to 17 denied those youth opportunities to obtain educational and employment skills,
which could have helped them contribute to their community in a productive and
meaningful way as the Transfer Act intended. See Exhibit 2 for grantees who excluded
youth ages 16 to 17.

Finding 2 — Grantee intake processing controls did not ensure sufficient
            documentation was obtained to verify participants met eligibility
            requirements.

Grantees lacked effective controls to ensure that only eligible participants received
program services. Based on the results of our testing of 270 enrollees and 273 program
exiters in a sample of 27 grantees, we found 103 participants enrolled by 21 grantees
that did not meet program eligibility requirements. Specifically, 57 (or 21 percent)
enrollees and 46 (or 17 percent) participants exiting the program did not meet program
requirements to verify eligibility –– mostly due to insufficient documentation to support
low income, disadvantaged, and school dropout status. We are 95 percent confident
that 2,534 (or 20 percent) of the 12,483 in our population of reported enrolled



1
 See Exhibit 1 for List of Sampled Grantees. 

2
 NIOSH is the Federal agency responsible for conducting research and making recommendations for the prevention 

of work-related injury and illness. 


                                                             Management Controls Need to be Strengthened
                                                       4                     Report No. 18-11001-03-001
                                                          U.S. Department of Labor – Office of Inspector General 



participants were ineligible. 3 Table 1 provides an analysis of grantees/participants
eligibility requirements not met.

        Table 1: Grantees/Participants Who Did Not Substantiate Meeting
        Eligibility Requirements
        Deficiencies Identified                           Participants Grantees*
        School Dropout                                             45         11
        Low Income Disadvantaged Status                            36         15
        Disadvantaged Status & School Dropout                      13          5
        25 Percent Exception Rule                                   7          4
        Foster Care Disadvantaged Status                            1          1
        Re-enrollment Requirement Not Met                           1          1
                               Total Ineligibles/Grantees         103         37
       *11 Grantees had more than one type of deficiency; therefore, the total number of grantees shown
       exceeds the total number (21 of 27 grantees) where eligibility requirements were not met.

The Transfer Act provides that eligible YouthBuild participants must be:
     (i) ages 16 to 24 on the date of enrollment;
     (ii) an individual with a disadvantaged status; 4 and
     (iii) a school dropout. 5

In addition, the Transfer Act allows up to 25 percent of participants (25 percent
exception rule) to be individuals who do not meet the disadvantaged status or
educational need requirements but who are basic skills deficient.

ETA provides guidance in its “Book of Knowledge” on the types of documentation that
can be utilized to verify participant eligibility, including their low income status. For
example, participants may provide pay stubs, bank statements (direct deposit),
employer statement/contact information, tax returns, and public assistance records to
verify income status. A birth certificate or other forms of state documents may be used
to verify the participant’s age; and school records or an applicant’s statement may be
provided as support for a participant’s dropout status.

According to ETA officials and the YouthBuild MIS Training Manual, only unsuccessful
exiters may be re-enrolled in the program. We identified five individuals, one within our
sample that reportedly completed the program successfully under a 2007 grant and
re-enrolled under the 2009 grant. The grantee re-enrolled the participant so that they
could attain their GED.



3
  We are 95 percent confident that at least 1,311 enrollees and as many as 3,757 enrollees were ineligible.
4
  The term “disadvantaged status” means youth from low income families, youth in foster care (including youth aging
out of foster care), a youth offender, a youth with a disability, a child of incarcerated parents, or a migrant youth. The
term “low-income families” means those families whose incomes do not exceed 80 per centum of the median income
for the area, as determined by the Secretary with adjustments for smaller and larger families.
5
  Per Training and Employment Guidance Letter 11-09 – The YouthBuild program may serve an individual who
dropped out of school and re-enrolled in an alternative school, if that re-enrollment is part of a sequential strategy.

                                                                   Management Controls Need to be Strengthened
                                                            5                      Report No. 18-11001-03-001
                                                       U.S. Department of Labor – Office of Inspector General 



Grantee officials stated they failed to obtain documents to verify participants’ eligibility
because they believed the documents were not required, documents could not be
located, or the documents were inadvertently not collected. We found grantees lacked
formal procedures and effective oversight of participant eligibility intake processes to
ensure program eligibility requirements were met. For example, 17 of the 27 (or 63
percent) grantees reviewed did not have effective verification procedures for the
accuracy of information used in eligibility determinations or proper management review
of various eligibility determinations.

We identified a total of $214,124 in questioned cost related to 103 ineligible participants,
and we estimate that $5.7 million could have been put to better use if funds were
expended on eligible participants. 6 See Exhibit 3 Attributes for Projections and Exhibit 4
for Schedule of Questioned Costs resulting from providing services to ineligible
participants.

In addition, 38 of 270 (or 14 percent) sampled participants enrolled by 19 grantees did
not meet the eligibility requirements due to noncompliance with Federal law requiring
military selective service registration. We estimate that 1,803 of the 12,483 (or 14
percent) participants in our population did not meet this requirement. 7 The Transfer Act
was incorporated as a separate section in the Workforce Investment Act of 1998 (WIA).
Section 189 (h) of the WIA requires the Secretary to ensure each individual participating
in any program or activity established under WIA to comply with the Military Selective
Service Act by presenting and submitting to registration. Grantee officials admitted they
did not ensure that all program candidates were registered for selective service prior to
enrollment, and others stated a lack of awareness of the requirement.

We attributed deficiencies to the sampled grantees’ lack of effective oversight and
inadequate policies and procedures. At 26 of 27 (or 96 percent) of the grantees, we
found deficiencies related to eligibility determination processes. In addition we found
that ETA lacked effective monitoring of grantee operations. Furthermore, at 8 of 27 (or
30 percent) sampled grantees, ETA monitoring site visits were not consistently
performed. Of the 19 grantees that received a monitoring site visit, only 6 received a
visit during their first year of operation even though onsite monitoring was essential for
ensuring that grantee controls are designed and implemented effectively. Furthermore,
only 7 of the 19 monitoring site visits detected control weaknesses that directly
impacted the program’s outcome regarding participant eligibility determinations and for
reporting program/participant achievements. Finally, DOL has not issued regulations for
the program, which according to some grantees interviewed, contributed to confusion
about program requirements and hampered them in meeting program goals.




6
  We are 95 percent confident that at least $2,065,487 and as much as $9,296,491 in costs could have been put to 

better uses on eligible participants.

7
  We are 95 percent confident that at least 584 enrollees and as many as 3,021 enrollees are ineligible. 


                                                               Management Controls Need to be Strengthened
                                                         6                     Report No. 18-11001-03-001
                                                           U.S. Department of Labor – Office of Inspector General 



Objective 2— Did ETA ensure that YouthBuild program core objectives and
             performance measures were met?


ETA’s controls were not effective for ensuring all core objectives and program measures
were met.

Finding 3 — ETA lacked effective controls to ensure that grantees met two of five
            program performance measures.

ETA met three of the five established program performance measures for YouthBuild
grantees who substantially completed their initial grant award. ETA officials reported
they met performance goals for participants attaining degrees/certificates, recidivism of
youth offenders, and literacy and numeracy gains, but did not meet the program
performance goals for placement or retention. 8 Only 43 percent of youth who exited the
program were placed in jobs or other educational programs compared to the goal of 70
percent; while 64 percent of those youth attaining placement retained employment or
stayed in school compared to the goal of 75 percent. Table 2 shows the goals and
actual outcomes for the five program performance measures as of December 31, 2010.

                       Table 2: Analysis of YouthBuild Performance Measures
                       Program Measures                           Goal Actual
                       Placement in Education or Employment       70% 43.46%
                       Retention of Education or Employment       75% 63.58%
                       Literacy and Numeracy Gains                50% 50.28%
                       Credential Attainment                      50% 61.30%
                       Recidivism of Youth Offenders             <20% 11.72% 


Our sample included 14 of 27 grantees, who substantially completed their grants. For
10 of 14 (or 71 percent) grantees, placement goals had not been met as of December
31, 2010. Grantee officials stated grant goals for placement and retention were not met
mostly due to the downturn in the economy.

While ETA contended that all grantees were aware of the program’s performance goals,
2 of 14 (or 14 percent) sampled grant agreements did not specify placement goals. Of
the remaining 12 grantee agreements, 5 specified placement goals that were below
ETA’s program goal levels. Furthermore, 10 of the 12 (or 83 percent) grantees did not
achieve the placement goals specified in their grant agreements, which were below
ETA’s program goal levels.

For the retention goal, 6 of 14 (or 43 percent) sampled grant agreements did not specify
a particular goal. Of the remaining 8 grantee agreements, 5 specified retention goals
that were below ETA’s program levels. Furthermore, 7 of the 8 (or 88 percent) grantees
did not achieve the retention goals specified in their grant agreements. When grantees’

8
    This refers to 96 percent of participants exiting as of December 31, 2010, from the 2007 grants awarded.

                                                                  Management Controls Need to be Strengthened
                                                            7                     Report No. 18-11001-03-001
                                                       U.S. Department of Labor – Office of Inspector General 



goals are not stated or are below those of ETA, it undermines ETA’s ability to ensure
program goals are met. See Exhibit 5 for grantees who did not meet performance goals.

According to the YouthBuild Project Director, since grantees were still serving youth in
the program, an increase in actual outcome percentage could result. In addition, the
Director stated that program year 2007 grantees were allowed no-cost extensions from
October 15, 2010, to September 30, 2011. ETA contends an accurate analysis of the
program year 2007 grantees’ performance will not be available until November 2011. 9
However, given that 96 percent of participants have exited the program as of
December 31, 2010, we conclude it is unlikely that a significant change in reported
outcomes will occur.

Finding 4 — Improvements are needed to ensure that reported performance data
            are accurate or supported.

Deficiencies found indicate a lack of ETA and grantee controls over the reported
program/participant achievements. We estimate that 605 (or 10 percent) of the 5,975
participants exited had overstated reported outcomes due to insufficient documentation
for achievements or ineligibility for the program.

We found 14 of 273 (or 5 percent) participant files lacked documentation to support
reported outcomes, such as employment verification forms, payroll records, GED
certificates, or high school diplomas. As a result we estimate that 286 of 5,975 (or 5
percent) exiters did not have sufficient documentation to support their reported
outcomes. 10 We also found 10 grantees reported outcomes for 18 program exiters that
did not meet program eligibility. As a result, we estimate 319 of 5,975 (or 5 percent)
participants’ outcomes are overstated because of outcomes reported for ineligible
participants. 11

In addition, we identified deficiencies in 14 of 27 (or 52 percent) grantees reported
outcomes on their March 31, 2010, Quarterly Performance Reports (QPR). To illustrate:

y Ten grantees incorrectly reported a total of 36 participants either as enrollees or
  exiters on their QPR. For example, one grantee reported a total of 24 enrollees when
  the actual number was 32 enrollees. Another grantee reported 90 enrollees when the
  actual number was 95 enrollees.

y Four grantees incorrectly reported 12 participants as successful completers even
  though they were in the program for less than 17 days; or had no measurable
  outcomes, such as literacy and numeracy gains or educational credentials.

9
 Programs (grantees) are allowed up to three quarters following a participant’s exit to achieve the credential
attainment measure. Retention in employment and education applies to those who are placed in the first quarter after
exit and is calculated for three quarters following exit.
10
   We are 95 percent confident that at least 14 and as many as 600 exiters in our population did not have adequate
support for the performance data reported. See Exhibit 3 for details.
11
   We are 95 percent confident that performance outcomes for at least 93 exiters and as many as 545 exiters are
overstated because of ineligible participants. See Exhibit 3 for details.

                                                               Management Controls Need to be Strengthened
                                                         8                     Report No. 18-11001-03-001
                                            U.S. Department of Labor – Office of Inspector General 





The grantees’ officials provided various reasons for the performance data
inconsistencies. For example, four grantees contended they were unaware of program
requirements due to unclear guidance, and other grantees contended that
documentation for placement verification was not available at the time of the review. We
attribute deficiencies to the sampled grantees lack of formal procedures and effective
oversight over the reporting of program outcomes to ensure program outcomes were
accurately reported.

In addition, ETA officials stated that they have developed and implemented a Case
Management Information and Performance System to ensure that reliable performance
data are available for the YouthBuild program and perform quarterly desk reviews and
site visits. However we found ETA’s oversight did not ensure grantees’ outcome
reporting processes accurately reported performance data nor were achievements
adequately supported.

Inaccurate performance data casts doubt on the validity of the reported program
outcomes, challenges the ability to evaluate program effectiveness, and distorts the
results program officials use as a basis for making key funding decisions. See Exhibit 6
for grantees who reported inaccurate performance data or lacked support for outcomes.

Finding 5 — Participants did not always receive industry-recognized certificates
            after completing occupational skill training.

ETA lacked effective oversight to ensure grantees provided adequate training for 140
participants to earn industry-recognized certificates. Our sample included 2 of the 27
grantees that did not provide any of their exiters industry-recognized certificates after
completing occupational skills training. Specifically, 62 exiters at the Urban League of
Broward County (ULBC) and 78 participants at the City of Greenfield YouthBuild
Program did not receive industry-recognized certificates.

WIA common measures for youth suggest industry-recognized occupational skills
certificate is obtained after construction training for performance measure expectations.
Training and Employment Guidance Letter No.17-05 (February 17, 2006) states: “. . .
the focus of the certificate measure is attainment of measurable technical or
occupational skills. . .”

In addition, ETA’s SGA requires applicants (grantees) to discuss the occupational skills
training component of the program including where and how the training will be
conducted, how the curriculum is developed, the type of industry recognized credentials
that result from the training, and the involvement of industry partners in the development
of the training.

The primary reason noted at the ULBC was that participants did not receive training
from a qualified trainer. While at the City of Greenfield YouthBuild Program, officials did
not sustain relationships with partners who were responsible for providing the

                                                   Management Controls Need to be Strengthened
                                             9                     Report No. 18-11001-03-001
                                            U.S. Department of Labor – Office of Inspector General 



industry-recognized training. Therefore, no such qualified training was provided to their
participants. The YouthBuild Project Director stated that the program’s intent is for
participants to receive industry-recognized credentials to be prepared for the job market.
During a technical assistance review at ULBC, officials were informed that a certified
construction manager was needed so the participants could receive the proper
industry-recognized credentials. Also, the ETA Federal Program Officer cited the City of
Greenfield for not having the required system in place to provide occupational skills
development activities. However, similar reviews were not conducted at all grantees in
our sample.

Due to the lack of oversight over grantees, ETA cannot ensure that all grantees are
providing industry-recognized certificates to prove the participants attained technical or
occupational skills; therefore, those affected participants are less likely to be competitive
in the job market.

Finding 6 — ETA has not designed and implemented a process to measure the
            increase in the supply of affordable homes for low-income families.

ETA has not attempted to measure the increase in supply of affordable homes for low-
income families that can be attributed to the program, which would address the fourth
objective of the Transfer Act. Specifically, the Transfer Act Section 173A states its
purpose is “to expand the supply of permanent affordable housing for homeless
individuals and low-income families by utilizing the energies and talents of
disadvantaged youth.” Therefore, by not setting goals and tracking outputs for the
increase in affordable housing units for homeless and low-income families, ETA cannot
accurately measure to what extent the program is meeting this core objective.

According to the YouthBuild Project Director, ETA does not measure the program
success through the number of housing units built, but rather prefers to focus on
participants to receive the maximum exposure in construction skill development,
education, and employment. To this point, ETA has made modifications to the program
that focus on increasing the skilled workforce available for the construction trade.

As part of ETA’s SGA process, grantees identify worksites they will use to train
participants and those worksites are incorporated into their grant agreements.
Discussions with grantees indicated that some find it more beneficial to partner with
other non-profit organizations; while others develop their own worksites when providing
construction training. During our audit, we noted that grantees who partnered with non-
profit organizations, such as Habitat for Humanity or city housing authorities, tend to
show a greater increase in the number of houses that were constructed versus grantees
that financed their own worksites. However, both approaches are acceptable to ETA.

ETA contends that the number of housing units built is not the measure of success of
the program, but rather it is participant training in construction skill development,
education, and employment. While we conclude that ETA’s focus on training, education,
and skill certification addressed other core objectives of the Transfer Act, it is also clear

                                                   Management Controls Need to be Strengthened
                                             10                    Report No. 18-11001-03-001
                                           U.S. Department of Labor – Office of Inspector General 



that expanding the supply of affordable housing units for low-income families is a core
objective of the Transfer Act.

Objective 3 — Were allegations in the hotline complaints against two YouthBuild
              grantees valid?

       Allegations of improprieties were not substantiated.

Finding 7 — The allegations of improprieties against two YouthBuild grantees
            were not substantiated.

We evaluated eight allegations made in the two complaints of improprieties against two
YouthBuild grantees. Able Disabled Advocacy was one of our 27 statistically selected
grantees and Eagle Ridge Institute was included in our review as a separate complaint.
Based on our audit work at both locations, none of the eight allegations could be
substantiated.

Able Disabled Advocacy, Inc. (San Diego, CA)

1. 	   The complaint against Able Disabled Advocacy alleged funds were
       misappropriated. Specifically, the complaint alleged the Director of Information
       Technology spent most of his time driving the Executive Director to places, such
       as Costco, and creating conflict within the office. In addition, it alleged that the
       Director misused computer equipment designated for various programs by
       keeping the equipment in his home. We conducted interviews with the Executive
       Director, the Director of Information Technology, and the Accountant regarding
       the complainant’s allegations.

       We tested a sample of financial transactions at this site and found the
       transactions to be both reasonable and supported. Also, we obtained a list of
       computer equipment and noted that no YouthBuild funds were used to purchase
       computer equipment.

Eagle Ridge Institute (Oklahoma, OK)

The complaint against Eagle Ridge Institute alleged that:

2.     	The Program Director paid students every week, even when they were not
        present and participating in the program. We compared the sign-in log and
        timesheets for 24 of the 78 participants’ attendance and stipends to verify the
        accuracy of the information. We found three participants who received stipends
        but did not have sign-in sheets to support the payments; however, we were
        unable to associate this deficiency to the Program Director as the complainant
        alleged.




                                                  Management Controls Need to be Strengthened
                                            11                    Report No. 18-11001-03-001
                                           U.S. Department of Labor – Office of Inspector General 



3.    One participant was in jail for 60 days and received checks for all the weeks
      incarcerated. We found five participants who were incarcerated during the
      program and none were found to have been paid stipends while incarcerated.

4.    Participants only attended class for as little as 2 hours per day. We found
      participants were required to sign in for classroom and onsite training, and for
      daily van transportation to attend classes. It was difficult to determine all
      hours/days attended because sign-in sheets were missing. According to the
      Program Director the agency moved during that time and participants were
      assigned to groups and signed in at several locations. Consequently, there was
      not sufficient evidence to substantiate the allegation.

5.    Participants slipped out for smokes and slept through class. We did not observe
      participants smoking or sleeping in classes during our site visit. However, the
      GED instructor interviewed stated that some of the participants are homeless and
      sometimes may have fallen asleep in the classroom. We were unable to gather
      sufficient evidence to substantiate the allegation.

6.    Only 1 of 18 participants graduated. We found 4 of the 24 (or 17 percent)
      students enrolled in January and March of 2008 received GED diplomas.
      According to the Program Director, 11 of remaining 20 students improved their
      educational skill levels. However, 7 of the 20 students either were only in the
      program for a short period or had no post-training test scores. While we have
      concerns that the percentage of credential attainment of 17 percent falls well
      below the approximate 50 percent outcome reflected program-wide, we found no
      evidence that substantiated program abuse.

7.    One participant left the state for approximately 2 months and was still paid
      stipends. We found no evidence that the participant in question was paid
      stipends or even enrolled in DOL’s YouthBuild program during the time period
      alleged. In fact, the participant’s file indicated she was enrolled under the HUD
      YouthBuild program when the allegation occurred.

8.    The Program Director re-enrolled some participants for a second year although
      they were not eligible. We did not find any of the 24 participants that successfully
      completed the program re-enrolled in the program. Participants are allowed to
      re-enroll in the YouthBuild program if they were unsuccessful exiters under a
      previous grant.

As stated above, none of the eight allegations could be substantiated.

Finding 8 — Grantees could not always demonstrate the 25 percent matching
            funds requirements were met.

ETA lacked effective oversight to ensure that grantees met the 25 percent matching
funds requirement. We found 7 of 27 (or 26 percent) sampled grantees did not put the

                                                  Management Controls Need to be Strengthened
                                           12                     Report No. 18-11001-03-001
                                           U.S. Department of Labor – Office of Inspector General 



necessary emphasis on tracking and reporting the matching requirements. Because
aligning resources and leveraging funding are key components of success under the
YouthBuild grant, ETA implemented the matching requirement. However, 7 grantees did
not track, report, or could not demonstrate that the 25 percent matching requirement
was met. Grantees typically reported the value of the use of buildings, instructors
provided by charter schools (partners), and receipts of goods and services provided by
non-profit organizations to satisfy their matching requirements. However, none of the 7
grantees clearly documented they met $768,356 in matching funds or the in-kind
contributions requirement. As a result of the seven grantees failure to provide proof of
the grant matching requirements, we noted an unsupported or unreported matching
amount of $768,356. See Exhibit 7 for grantees who could not demonstrate the 25
percent match.

Federal Register Volume 73, page 58658 (Solicitation for Grant Application) states:

              Applicants must provide cash or in-kind resources equivalent
              to at least 25 percent of the grant award amount as matching
              funds. Neither prior investments nor Federal resources may
              count as match….Upon completion of the grant, if the
              matching funds are found to be an unallowable cost, the
              amount of DOL grant funds may be decreased on a dollar-
              for-dollar basis.

The grantees acknowledged they have a matching requirement, but attribute their lack
of compliance to not having a mechanism in place for tracking the match amount.
Grantees are required to report their matching efforts on their quarterly financial report.
Although ETA reviews these documents as part of their desk monitoring function and
reported detection and follow up on the lack of compliance, we found seven grantees
that did not report the amount, and there was no indication that ETA followed up. For
example, two grantees operated the program for more than 6 months, had not reported
matching information, or made an effort to collect such information.
Because the seven grantees failure to demonstrate a process in place and evidence to
support having met the grant matching requirements, we identified $768,356 of
unsupported matching funds. ETA officials stated these grants do not expire until
June 30, 2012, and at that time will determine any costs that are disallowed during the
closeout should the grantee fail to meet the required match levels. We conclude the lack
of effective grantee processes in place and ETA monitoring of grantee compliance does
not ensure all program funds are timely made available and may put at risk the recovery
of federal grant funds and grantees meeting the program objectives.




                                                  Management Controls Need to be Strengthened
                                            13                    Report No. 18-11001-03-001
                                           U.S. Department of Labor – Office of Inspector General 



RECOMMENDATIONS

We recommend the Assistant Secretary for the Employment and Training
Administration:

   1. Determine how to best serve youth ages 16 to 17 who are excluded from the
      YouthBuild program.

   2. Develop and implement controls to ensure that program eligibility and reporting
      requirements are met.

   3. Recover the $214,124 in questioned cost associated with ineligible participants.

   4. Develop and implement controls to ensure (1) performance goals are included in
      grant agreements; and (2) grantees are meeting program goals through the
      oversight of stated goals in grantee agreements.

   5. Develop and implement controls to ensure performance measures are accurately
      reported.

   6. Develop and implement controls to ensure participants receive 

      industry-recognized certificates after completing occupation skills training, 


   7. Develop a process to measure the increased number of affordable permanent
      housing units as a result of the program.

   8. Ensure grantees are appropriately meeting the program’s 25 percent matching
      fund requirements.

We appreciate the cooperation and courtesies that ETA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix [E].




Elliot P. Lewis
Assistant Inspector General for Audit 





                                                  Management Controls Need to be Strengthened
                                            14                    Report No. 18-11001-03-001
            U.S. Department of Labor – Office of Inspector General 





Exhibit 





                   Management Controls Need to be Strengthened
            15                     Report No. 18-11001-03-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                    Management Controls Need to be Strengthened
              16                    Report No. 18-11001-03-001
                                          U.S. Department of Labor – Office of Inspector General 



                                                                                     Exhibit 1 

List of Sampled Grantees Audited



        Grantee                                                                City            State
   1    Able-Disabled Advocacy, Inc.                                      San Diego            CA
   2    Aletheia House*                                                   Birmingham           AL
   3    Century Center for Economic Opportunity                           Gardena              CA
   4    City of Greenfield YouthBuild Program                             Greenfield           CA
   5    City of Jacksonville, Florida                                     Jacksonville         FL
   6    City of Peoria Workforce Development Department                   Peoria               IL
   7    City of Sanford YouthBuild                                        Sanford              FL
   8    Coalition for Responsible Community Development*                  Los Angeles          CA
   9    Community Teamwork, Inc.*                                         Lowell               MA
  10    Emerson Park Development Corporation*                             East St. Louis       IL
  11    Fresno County Economic Opportunities Commission*                  Fresno               CA
  12    Hale Empowerment and Revitalization Organization, Inc.*           Greensboro           AL
  13    Just-A-Start Corporation                                          Cambridge            MA
  14    Lewis and Clark Community College                                 Godfrey              IL
        Los Angeles Communities Advocating for Unity, Social
  15                                                                      Los Angeles          CA
        Justice (LA CAUSA)
  16    M S Action for Community Education*                               Greenville           MS
  17    San Diego Imperial Counties Labor Council                         San Diego            CA
  18    San Gabriel Valley Conservation Corps                             El Monte             CA
  19    Southwest Florida Workforce Development Board, Inc.               Fort Myers           FL
  20    Springfield Urban League, Inc.                                    Springfield          IL
  21    The Metropolitan Area Advisory Committee Project*                 Chula Vista          CA
  22    United Methodist Children’s Home*                                 Mt. Vernon           IL
                                                                          Fort
  23    Urban League of Broward County*                                                        FL
                                                                          Lauderdale
  24    Urban League of Rhode Island                                      Providence           RI
  25    West Jackson Community Development Corporation                    Jackson              MS
  26    WorkNet Pinellas, Inc.*                                           Clearwater           FL
  27    YouthBuild USA                                                    Somerville           MA
* 11 Grantees who accepted ARRA funds.




                                               Management Controls Need to be Strengthened
                                          17
	                 Report No. 18-11001-03-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                    Management Controls Need to be Strengthened
              18                    Report No. 18-11001-03-001
                                    U.S. Department of Labor – Office of Inspector General 



                                                                               Exhibit 2
Grantees Who Excluded Youth Ages 16 to 17



    Grantee                                                          City      State
  1 Alethia House                                          Birmingham          AL
  2 Century Center for Economic Opportunity                Gardena             CA
  3 City of Jacksonville                                   Jacksonville        FL
  4 City of Peoria Workforce Development Department        Peoria              IL
  5 Fresno County Economic Opportunities Commission        Fresno              CA
  6 Just-A-Start Corporation*                              Cambridge           MA
  7 San Diego Imperial Counties Labor Council              San Diego           CA
  8 Southwest Florida Workforce Development Board          Ft. Meyers          FL
  9 Urban League of Broward County                         Ft. Lauderdale      FL
 10 WorkNet Pinellas, Inc.                                 Clearwater          FL
 * Excluded only 16 year olds




                                           Management Controls Need to be Strengthened
                                    19                     Report No. 18-11001-03-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                    Management Controls Need to be Strengthened
              20                    Report No. 18-11001-03-001
                                                U.S. Department of Labor – Office of Inspector General 



                                                                                             Exhibit 3
Attributes for Projections


                                                                       Type of Error
 Attributes for Projections
                                                           A              B             C         D

 Universe Size                                              12,483        12,483       5,975     5,975

 Sample Size                                                    270           270        273          273

 Number of Cases with Errors Identified in Sample                57            38           14         18


 Point Estimate of Percentage of Cases in
                                                            20.30%       14.44%        4.78%     5.34%
 Universe with Errors

 Point Estimate of Cases with Errors                           2,534       1,803         286          319


 Projected Percent of Lower Limit Cases in
                                                            10.50%         4.68%            0%   1.56%
 Universe
 Lower Limit Estimate of Cases with Errors in
                                                               1,311          584            0         93
 Universe

 Projected Percent of Upper Limit Cases in
                                                            30.10%       24.20%       10.05%     9.12%
 Universe
 Upper Limit Estimate of Cases with Errors in
                                                               3,757       3,021         600          545
 Universe


 Point Estimate of Financial Impact                      $5,680,989           -----      -----        -----

 Lower Limit Estimate of Financial Impact                $2,065,487           -----      -----        -----

 Upper Limit Estimate of Financial Impact                $9,296,491           -----      -----        -----


Type of Error:
   • A = Ineligible participants in the enrollment sample
   • B = Other ineligible participants in the enrollment sample-Selective Service Registration
   • C = Missing support for performance outcomes
   • D = Overstated performance data because of ineligible participants




                                                         Management Controls Need to be Strengthened
                                                    21                   Report No. 18-11001-03-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                    Management Controls Need to be Strengthened
              22                    Report No. 18-11001-03-001
                                                   U.S. Department of Labor – Office of Inspector General 



                                                                                              Exhibit 4
Schedule of Questioned Costs


                                                                         Participants*         Total
                                                             Total
       Grantee Name                                                                          Questioned
                                                            Enrolled
                                                                                               Costs
1      Able-Disabled Advocacy, Inc                             115               1             $2,619.00
2      City of Greenfield YouthBuild Program                    78               7             27,670.00
3      City of Jacksonville**                                   32               3                  0.00
       Coalition for Responsible Community
4                                                               18               4               10,747.79
       Development
5      Community Teamwork, Inc.                                 30               3                 3,883.00
6      Emerson Park Development Corporation                    136               6                 7,654.04
       Hale Empowerment and Revitalization
7                                                               95               7                 8,670.13
       Organization
8      Just-A-Start Corporation                                 26               2                 8,993.00
       LA Communities Advocating for Unity,
9                                                               64               1                   737.00
       Social Justice and Action
10     Lewis and Clark community College                        23               1                2,161.55
11     M S Action for Community Education                      109              10               11,870.00
12     San Gabriel Valley Conservation Corps                    22              1                 1,885.00
13     Sanford / Seminole County YouthBuild                     26              1                   600.00
14     Springfield Urban League, Inc.                           62              14               15,543.36
15     SW Florida Workforce Develop.                           109              5                37,323.93
       The Metropolitan Area Advisory
16                                                              37               3                 8,794.00
       Committee Project
17     United Methodist Children’s Home                        101              5                8,294.71
18     Urban League of Broward County                           94              2                9,180.00
19     Urban League of Rhode Island                             67              9               20,360.75
20     WorkNet Pinellas, Inc.                                   35              15              25,496.79
21     YouthBuild USA                                          164              3                1,640.00
                                         Totals               1,443            103            $214,124.05
* Includes individuals from both the enrollee and the exiter samples 

** Grantee serves inmates and does not provide wages or stipends 





                                                           Management Controls Need to be Strengthened
                                                    23                     Report No. 18-11001-03-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                    Management Controls Need to be Strengthened
              24                    Report No. 18-11001-03-001
                                                   U.S. Department of Labor – Office of Inspector General 



                                                                                               Exhibit 5 

Grantees Who Did Not Meet Performance Goals (1 of 2)

                               Placement in Education or Employment

                                   Analysis of Goals for 2007 Grants

                                                                                              Grantee
                                                                                              Outcome
                                                             Goal Per                           per
                                                              Grant                           12/31/10         Not
       Grantee                                              Agreement*                          QPR            Met
  1    Able-Disabled Advocacy, Inc.                                   53                            31          X
  2    Aletheia House***                                         81.00%                        63.41%           X
  3    City of Greenfield YouthBuild Program***                      N/A                       14.29%          N/A
  4    Community Teamwork, Inc.                                       49                            27          X
  5    Emerson Park Development Corporation**                    30.00%                        63.64%
  6    Fresno County Economic Opportunities Commission***        70.00%                        54.90%          X
  7    Just-A-Start Corporation**                                     79                            42         X
       Los Angeles Communities Advocating for Unity, Social
  8                                                                   36                               36
       Justice
  9    Southwest Florida Workforce Development Board***               34                             17         X
 10    United Methodist Children’s Home                          75.00%                         41.18%          X
 11    Urban League of Broward County                            80.00%                         43.33%          X
 12    Urban League of Rhode Island                                   30                             10         X
 13    West Jackson Community Development Corporation                N/A                        70.59%         N/A
 14    YouthBuild USA                                                100                             50         X
                                         Total Grantees that Did Not Meet Placement Goal                       10
QPR = December 31, 2010 Quarterly Performance Report 

N/A = Information not available. Goal not specified in grant agreement. 

* = If available in the grant agreement, used the number of participants projected to meet the goal rather 

than the percentage of participants. 

** = Two grantees had participants who had not exited as of March 31, 2010. 

*** = No activity for four grantees for the period ended December 31, 2010; therefore, we used the 

Quarterly Performance Report as of September 30, 2010 for this analysis. 





                                                         Management Controls Need to be Strengthened
                                                    25
	                 Report No. 18-11001-03-001
                                                   U.S. Department of Labor – Office of Inspector General 



                                                                                            Exhibit 5
Grantees Who Did Not Meet Performance Goals (2 of 2)


                                         Retention of Placements

                                    Analysis of Goals for 2007 Grants

                                                                                            Grantee
                                                                                            Outcome
                                                          (*) Goal Per                         per
                                                              Grant                         12/31/10           Not
       Grantee                                            Agreement                           QPR              Met
  1    Able-Disabled Advocacy, Inc.                                  45                            25           X
  2    Aletheia House***                                        83.00%                        75.00%            X
  3    City of Greenfield YouthBuild Program***                     N/A                       20.00%           N/A
  4    Community Teamwork, Inc.                                     N/A                        0.00%           N/A
  5    Emerson Park Development Corporation**                   15.00%                        14.29%            X
  6    Fresno County Economic Opportunities Commission***       65.00%                        78.57%
  7    Just-A-Start Corporation**                                   N/A                       93.75%           N/A
       Los Angeles Communities Advocating for Unity, Social
  8                                                                  30                              23        X
       Justice
  9    Southwest Florida Workforce Development Board***              26                             9           X
 10    United Methodist Children’s Home                         80.00%                         52.38%           X
 11    Urban League of Broward County                           75.00%                         53.85%           X
 12    Urban League of Rhode Island                                 N/A                        20.00%          N/A
 13    West Jackson Community Development Corporation               N/A                        77.14%          N/A
 14    YouthBuild USA                                               N/A                        66.00%          N/A
                                         Total Grantees that Did Not Meet Retention Goal                        7

QPR = December 31, 2010 Quarterly Performance Report 

N/A = Information not available. Goal not specified in grant agreement. 

* = If available in the grant agreement, used the number of participants projected to meet the goal rather 

than the percentage of participants. 

** = Two grantees had participants who had not exited as of March 31, 2010. 

*** = No activity for four grantees for the period ending December 31, 2010; therefore, we used the 

Quarterly Performance Report as of September 30, 2010 for this analysis. 





                                                          Management Controls Need to be Strengthened
                                                    26                    Report No. 18-11001-03-001
                                             U.S. Department of Labor – Office of Inspector General 



                                                                    Exhibit 6 

Grantees Who Reported Inaccurate Performance Data or Lacked Support for 

Outcomes 



                                                         Type of Errors Reported
                                                                      Performance
                                     Number of         Participants                          Unsupported
                                                                      Outcomes of
                                    Participants       Reported as                            Participant
     Grantee                                                           Participants
                                     Enrolled /        Successful                            Performance
                                                                      Not Program
                                      Exited           Completers                             Outcomes
                                                                         Eligible
     Able-Disabled Advocacy,
1                                                                               X
     Inc.
     City of Greenfield
2                                        X
     YouthBuild Program
3    City of Jacksonville                X                   X                  X
4    City of Sanford YouthBuild          X                   X
     Coalition for Responsible
5                                        X
     Community Development
6    Community Teamwork, Inc.            X
     Emerson Park Development
7                                        X                                                          X
     Corporation
     Hale Empowerment and
8                                                            X                  X
     Revitalization Organization
     M S Action for Community
9                                        X                                      X                   X
     Education
     Southwest Florida
10                                                                              X
     Workforce Development
11   Springfield Urban League            X                                      X                   X
     The Metropolitan Area
12                                                                              X                   X
     Advisory Committee
     United Methodist Children’s
13                                                                              X                   X
     Home
     Urban League of Broward
14                                       X                   X
     County
     Urban League of Rhode
15                                                                              X                   X
     Island
     West Jackson Community
16                                       X                                                          X
     Development Corp.
17   YouthBuild USA                                                             X                   X
                   Total Grantees       10                   4                  10                  6




                                                  Management Controls Need to be Strengthened
                                             27
	                 Report No. 18-11001-03-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                    Management Controls Need to be Strengthened
              28                    Report No. 18-11001-03-001
                                       U.S. Department of Labor – Office of Inspector General 



                                                                                  Exhibit 7
Grantees Who Could Not Demonstrate 25 Percent Match



                                                                    Did Not Track,
    Grantee                                                           Report or
                                                                       Support
1   Century Center for Economic Development                              $179,522
2   City of Sanford YouthBuild                                              26,758
3   Emerson Park Development Corporation                                  131,476
4   LA Communities Advocating for Unity, Social Justice                   180,865
5   The Metropolitan Area Advisory Committee Project                      104,078
6   United Methodist Children’s Home                                      108,682
7   WorkNet Pinellas, Inc.                                                  36,975
	
                                                           Total         $768,356




                                              Management Controls Need to be Strengthened
                                        29                    Report No. 18-11001-03-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                    Management Controls Need to be Strengthened
              30                    Report No. 18-11001-03-001
               U.S. Department of Labor – Office of Inspector General 





Appendices 





                      Management Controls Need to be Strengthened
               31                     Report No. 18-11001-03-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                    Management Controls Need to be Strengthened
              32                    Report No. 18-11001-03-001
                                                          U.S. Department of Labor – Office of Inspector General 



                                                                                                         Appendix A
Background

The YouthBuild Transfer Act (Transfer Act) enacted on September 22, 2006, transferred
the YouthBuild program from the U.S. Department of Housing and Urban Development
(HUD) to the U.S. Department of Labor (DOL), and amended the Workforce Investment
Act of 1998 (WIA) Title I by adding section 173 A, to subtitle D. The Employment and
Training Administration (ETA) administers the program under a provision added to the
WIA. The DOL assumed grant administration for all DOL-awarded YouthBuild grants
beginning in FY 2007. YouthBuild provides educational and job training opportunities
within the construction industry for at-risk youth who are between the ages of 16-24, are
school dropouts, and are members of at least one of the eligibility groups (youth
offender, foster youth, low-income youth, youth who are individuals with disabilities,
children of an incarcerated parent, or migrant youth).

The transfer was an effort to address concerns about overall program quality, and better
align the program with existing youth workforce and training programs under WIA. The
Transfer Act outlines four core objectives. The first three objectives address assisting
economically disadvantaged youth to (1) obtain the education and employment skills
necessary to achieve economic self sufficiency, (2) provide youth opportunities for
meaningful work and service to their communities, (3) and develop leadership skills.
The fourth objective addresses the expansion of affordable housing for low-income
families and homeless individuals.

The program targets at-risk youth. According to the Transfer Act, an individual may
participate in a YouthBuild program only if the individual is:

       (i) ages 16 to 24 on the date of enrollment;
       (ii) an individual with a disadvantaged status; 12 and
       (iii) a school dropout. 13

However, up to 25 percent of participants may be individuals who do not meet the
income or educational need requirements but who are basic skill deficient, despite
attainment of a secondary school diploma, General Education Development (GED)
credential, or other State-recognized equivalent. Eligible participants should be offered
full-time participation in the program from 6 to 24 months.

To evaluate performance, the ETA uses five measures (1) placement in employment or
education; (2) employment retention rate; (3) attainment of a degree or certificate; (4)
literacy and numeracy gains; and (5) youth offenders’ recidivism rate. ETA also


12
   The term “disadvantaged status” means youth from low income families, youth in foster care (including youth aging
out of foster care), a youth offender, a youth with a disability, a child of incarcerated parents, or a migrant youth. The
term “low-income families” means those families whose incomes do not exceed 80 per centum of the median income
for the area, as determined by the Secretary with adjustments for smaller and larger families.
13
   Per Training and Employment Guidance Letter No. 11-09 - The YouthBuild program may serve an individual who
dropped out of school and re-enrolled in an alternative school, if that re-enrollment is part of a sequential strategy.

                                                                   Management Controls Need to be Strengthened
                                                           33                      Report No. 18-11001-03-001
                                                     U.S. Department of Labor – Office of Inspector General 



established enrollment goals for each YouthBuild grantee but they are not considered
an outcome measure.

Since beginning the administration of the YouthBuild program in 2007, DOL has
awarded 290 grants to 226 grantees for approximately $280 million. The first of these
grants were awarded on October 15, 2007. Of these grants, 75 were funded under the
American Recovery and Reinvestment Act (ARRA) and 215 were non-ARRA grants.
See Table below for more details.

                                 YouthBuild Program Budget Activities

                             Non ARRA                         ARRA
                           (in thousands)                (in thousands)
     Program Year                    No. of 	                      No. of             Grant Period
         (PY)            Funding     Grants            Funding     Grants

           2007           $93,681             96                0             0    10/15/07 to 10/14/10

           2008              8,875            11                0             0    07/21/08 to 07/20/11

           2009           105,159            108           $72,238           75    07/01/09 to 06/30/12
    Note: Grant awards in PY 2008 were based on PY 2007 competition after ETA received additional funding.
    Total amount of the award is $279,953,000 (approx. $280 million).

Both ARRA and non-ARRA grants are used to fund the same training and services in
the YouthBuild program. However, Section 1512 (c) of the ARRA requires grant
recipients report on the use of ARRA funds, including financial and programmatic
information no later than 10 days after the end of each quarter calendar.

YouthBuild grants are competitively awarded and provide at-risk youth “a second
chance” through education and employment-skills training. As of March 31, 2010, ETA
reported a total of 12,483 participant enrollments (enrollees) and 5,975 participants who
exited (exiters) the program. YouthBuild grants cover a 3-year period, with the first 2
years focusing on education and training, and the 3rd year reserved for follow-up
activities.

ETA indicated that several program improvements were made to the program in the
areas of performance, grant administration and oversight, technical assistance efforts,
and increased intra-agency collaboration. For example, ETA contended they have:

   Established performance goals for grantees including enrollment, placement in
    education and employment, credential attainment, literacy/numeracy gains, retention
    in education and employment, and recidivism. These measures were not tracked by
    HUD.

   Responded to a GAO recommendation to provide multiple years of funding for
    YouthBuild programs and developed the competitive process for award grants.


                                                             Management Controls Need to be Strengthened
                                                      34                     Report No. 18-11001-03-001
                                          U.S. Department of Labor – Office of Inspector General 



   Worked collaboratively with the Office of Apprenticeship to complete the YouthBuild
    Apprenticeship Pilot including the YouthBuild Apprenticeship Guide, and the Office
    of Federal Contract Compliance Programs to create employment opportunities for
    YouthBuild graduates.




                                                 Management Controls Need to be Strengthened
                                           35                    Report No. 18-11001-03-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                    Management Controls Need to be Strengthened
              36                    Report No. 18-11001-03-001
                                                         U.S. Department of Labor – Office of Inspector General 



                                                                                                       Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objectives were to answer the following questions:

     1. Did ETA ensure eligible participants received allowable training and services?

     2. Did ETA ensure YouthBuild program core objectives and performance measures
        were met?

     3. Were allegations in the hotline complaints against two YouthBuild grantees valid?

Scope

The audit covered ETA and grantees’ practices, policies, and procedures over the
YouthBuild program between July 1, 2007, and March 31, 2010. Our testing and audit
work was performed at ETA in Washington, D.C., and at grantees worksites in 8 states:
Alabama, California, Florida, Illinois, Massachusetts, Mississippi, Oklahoma, and Rhode
Island. In all, we visited 27 14 randomly selected grantees from a universe of 223 who
reported data during our audit period. In addition, we extended our scope to include
program measures for the period ended December 31, 2010.

In addition, our audit focused on two separate complaints against (1) Able Disabled
Advocacy, Inc., San Diego, California; and (2) Eagle Ridge Institute, Oklahoma City,
Oklahoma.

Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

To accomplish our audit objectives, we identified ETA’s written policies and procedures
over the YouthBuild program; analyzed ETA’s oversight responsibilities and their efforts
to ensure grantees’ accountability and compliance; and obtained Federal Project Officer
monitoring reports for selected grantees and identified performance and management
issues and what corrective actions had been taken.



14
 We visited one additional grantee to address a complaint, Eagle Ridge Institute that was not part of our statistical
sample.

                                                                 Management Controls Need to be Strengthened
                                                          37                     Report No. 18-11001-03-001
                                                     U.S. Department of Labor – Office of Inspector General 



We developed a statistical sampling plan to test the 223 15 YouthBuild grantees and the
ETA reported data between July 1, 2007 and March 31, 2010. We used both attribute
and variable sampling at a 95 percent confidence level to estimate the monetary impact
of grantees that enrolled and exited participants who did not meet eligibility and/or
program-outcome requirements. We designed a 3-stage stratified cluster sample, with
the grantees assigned to 1 of 26 clusters based on geographic location. The 26 clusters
were stratified into two strata, with one stratum containing clusters with less than $10
million in grant funds, and the second stratum containing those with greater than $10
million. We randomly selected 3 clusters from each stratum and then randomly selected
a total of 27 grantees from 6 randomly selected clusters. For each grantee, we
randomly selected a sample of program enrollees and a sample of program exiters. In
total, we selected a statistical sample of 543 participants; tested a total of 270 enrollees
of 12,483, and 273 exiters from 5,975, served by the 27 grantees. The results of our
tests of enrollees and exiters were projected to their respective universes.

At each grantee location, we performed the following work:

     •	 Identified controls over activities and costs, cash management, eligibility and
        program services, matching funds reporting, and equipment and real property.

     •	 Tested program costs to determine whether costs were allowable, allocable,
        reasonable, and properly reported.

     •	 Reviewed administrative costs to ensure that costs did not exceed the 15
        percent statutory limitation.

     •	 Calculated the average cost per participant to assess whether the average cost
        was within the normal range for YouthBuild programs.

     •	 Determined if at least 75 percent of participants met the disadvantaged status or
        educational requirement for eligibility.

     •	 Tested samples of program enrollees and exiters to ensure that grantees
        enrolled eligible participants, did not serve participants using multiple
        YouthBuild grants, provided necessary and allowable services, and reported
        outcomes accurately.

     •	 Identified the training and services provided to enrollees to ensure they were in
        accordance with YouthBuild legislative and Solicitation for Grant Application
        guidelines. Additionally, ensured that participants were provided leadership and
        community service opportunities, and whether some of those work opportunities
        led to an increase in the supply of affordable housing for low income families or
        homeless individuals.

15
   Of the 226 grantees who were awarded 290 grants, 223 grantees reported program activities during our audit
period. The 223 grantees were awarded a total of 287 grants (213 non-ARRA grants and 74 ARRA grants). For our
purposes, we combined the grant awards and outcome data for those grantees who received multiple grants.

                                                            Management Controls Need to be Strengthened
                                                      38                    Report No. 18-11001-03-001
                                            U.S. Department of Labor – Office of Inspector General 





    •	 Identified grantees that did not serve 16-or 17-year-old-youth.

    •	 Ensured that DOL funds were properly accounted for if the program was
       supplemented with other financial resources.

    •	 Determined if the grantee met the 25 percent matching requirement or was on
       track to do so.

    •	 Determined if construction costs exceeded the 10 percent limitation.

    •	 Determined if the grantee operated a mental toughness program, and if so,
       assessed the program to ensure it was consistent with ETA guidelines.

In planning and performing our audit, we considered whether internal controls significant
to our audit objectives were properly designed and placed in operation. This included
the review of documentation to evaluate the adequacy of ETA controls for determining
participant eligibility and reporting outcomes and the grantees’ policies and procedures
as they related to the YouthBuild program. We confirmed our understanding of these
controls through interviews and review and analysis of documentation. We evaluated
the adequacy of internal controls used by ETA for reasonable assurance that
YouthBuild grantees were operating and reporting financial expenditures and results in
compliance with federal regulations and guidance. We evaluated grantees’ controls for
reasonable assurance that controls were in place over areas such as program eligibility,
appropriateness and allowability of services, cash management, property and
equipment, and matching costs. Our consideration of internal controls would not
necessarily disclose all matters that might be significant deficiencies. Because of
inherent limitations in internal controls, misstatements or noncompliance may
nevertheless occur and not be detected.

To achieve the assignment’s objectives we relied on the computer-processed data
contained in YouthBuild Management Information System (MIS) System. We assessed
the reliability of the data by (1) performing various testing of required data elements; (2)
interviewing ETA and YouthBuild grant officials knowledgeable about the data; and (3)
reviewing Quarterly Performance Reports (QPRs) data and outcome measures, and
controls for preparing the QPRs. Based on these tests and assessments, we concluded
the data was sufficiently reliable to use in meeting the audit objectives.

We also evaluated allegations of improprieties made against two grantees — one
grantee from our original sample and one additional grantee — as a result of separate
complaints. The results from the complaints are discussed separately in the report.
Specifically, as it relates to:




                                                   Management Controls Need to be Strengthened
                                             39                    Report No. 18-11001-03-001
                                           U.S. Department of Labor – Office of Inspector General 



Able Disabled Advocacy, Inc

To determine whether the complaint had merit regarding the misuse of program funds
and computer equipment, we interviewed program officials, reviewed program
transactions during the period from October 15, 2007, through March 31, 2010, and
tested 20 transactions to ensure that each was allowable and adequately supported.
We reviewed equipment purchases to identify whether any YouthBuild funds were used
to purchase computer equipment. We obtained an inventory of computer equipment at
the agency and discussed the list and the operations of the Information Technology (IT)
department with the Director of IT and assessed his understanding of the department.
We also reviewed personnel costs charged to the YouthBuild grants.

Eagle Ridge Institute

We focused on program activities related to the 2007 grant award as the complaint
suggested. We interviewed the Program Director to respond to issues specific to the
complaint. We selected 24 of the 78 participants enrolled in the program and performed
tests specific to the allegations. We also reviewed participant files, compared the sign-in
log and timesheets for 24 participants’ attendance and stipends to verify the accuracy of
the information. We also observed participants during class hours to detect any unusual
activities.

Criteria

We used the following criteria to perform this audit:

y    YouthBuild Transfer Act of 2006
y    Workforce Investment Act of 1998
y    Solicitation for Grant Application (YouthBuild Grants)
•    The American Recovery and Reinvestment Act of 2009
•    Training and Employment Guidance Letter No.17-05 (February 17, 2006)
•    Training and Employment Guidance Letter No. 11-09 (December 4, 2009)
•    “Book of Knowledge” issued by the Employment and Training Administration




                                                  Management Controls Need to be Strengthened
                                            40                    Report No. 18-11001-03-001
                                      U.S. Department of Labor – Office of Inspector General 



                                                                             Appendix C
Acronyms and Abbreviations


ARRA            American Recovery and Reinvestment Act

DOL             Department of Labor

ETA             Employment and Training Administration

GED             General Education Development

GAO             General Accountability Office

HUD             Housing and Urban Development

IT              Information Technology

NIOSH           National Institute for Occupational Safety and Health

OIG             Office of Inspector General

PY              Program Year

QPR             Quarterly Performance Report

SGA             Solicitation for Grant Application

Transfer Act    YouthBuild Transfer Act of 2006

ULBC            Urban League of Broward County

WIA             Workforce Investment Act of 1998




                                              Management Controls Need to be Strengthened
                                       41                     Report No. 18-11001-03-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                    Management Controls Need to be Strengthened
              42                    Report No. 18-11001-03-001
                                                     U.S. Department of Labor – Office of Inspector General 



                                                                                                      Appendix D
ETA Response to Draft Report



        U.S . Department of Labor               Assistant Secretary lor
                                                Employmtml and TrainIng
                                                Washington 0 C 20210




         MEMORANDUM FOR:             ELLIOT P. LEWIS
                                     Assistant Inspector General for Audit
                                     Office of Inspector General

         FROM:                       JANE OATES
                                     Assistant Secretary for
                                     Employment and Training Administration

        SUBJECT:                     Response to Draft Report No. 18-11-001-03-001
                                     "Recovery Act: ETA Needs to Strengthen Management Controls to
                                     Meet YouthBuild Program Objectives"


        Thank you fo r the opponunity to comment on the draft audit report referenced above. As you
        know, the Employment and Training Administration (ETA) assumed responsibility for the
        administra tio n of the YouthBuild program from U.S. Department of Housing and Urban
        Dcvelopment (HUD) in 2006. Since then, ETA has hldd three grant competitions and awarded #
        gf<tnts. The first cohort of ETA YouthBuild grants. which \las awarded in 2007, has recently
        ended. The 2009 cohon of YouthBuiJd grants was awarded in July 2009 and is about mid-way
        through its period of performance. The 2010 cohort of YoulhBuild grants was awarded on
        March 15,2011.

        The Oftice of Inspector General's (010) audit report of Youth Build provides ETA with valuable
        information that we will use to continuously improve the YouthBuild program. However, ETA
        would like to use this opponunity to provide information and correct some characterizations of
        the findings included in the audit report that lead 10 what we believe is a misrepresentation of
        ETA's management of the YouthBuild program.

        ETA supports continuous improvement of the stewardship of its discretionary grants with respect
        to supervisory reviews and documen!ation of grantee monitoring activities and our managemen!
        of discretionary granls reflect this principle. We continue to build on ETA's quality assurance
        procedures. training and guidance to statfthrough the devclopment of internal agency
        management procedures and annual performance expectations. These include the consistent use
        of Grants Electronic Management System (GEMS) by all Federal Project Officers and a
        quartcrly review by management ofrepons in GEMS that vcrify the completion of criticIII steps
        in the monitoring process, including completion of Desk ReViews, Risk Assessments, and reports
        ofon-si!~ visits.


         ETA includes the following responses 10 the recommendations contained in the OIG Audit
         Report:

        Re(:OInmendation I: Determine how 10 besl serve yQlllh agl'S 16/0 17, who (Ire excluded/rom
        thl' )"ullthBllild program.




                                                               Management Controls Need to be Strengthened
                                                       43                      Report No. 18-11001-03-001
                                               U.S. Department of Labor – Office of Inspector General 





YouthBuild provides an opportunity for low-income young people ages 16 - 24 to acquire high
school diplomas or GEDs, learn construction related occupational skills, and help thei r
communities by building affordable housing. Youth ages 16 and 17 can and are being served by
many YOUlhBuild grantees; the DIG audit report states that among eligible you th ages 17
through 24, about "25 percent of youth served by the sampled grantees were between the ages of
16 and 17". Local grantees have flexibility under the YouthBuild Transfer Act (P .L.l 09-28\)
and the Solicitation for Grant Application (SGA) to determine which ages among eligible youth
they will serve in the local program. These grantee decisions are based upon locally detennined
factors, including safety concerns related to National Institute for Occupational Safety and
Health (NIOSH) recommendations that restrict the work of)outh unde r the age of 18 on
construction sites, and State compulsory education laws which require students to remain in high
school until 18 years of age. For these reasons, a grantee may not allow 16 to 17 year olds
access to Youth Build for safety or other considerations; however, these low-income youth may
choose to access Workforce Investment Act (WIA) youth formula. program services through the
One-Stop Career Center network in their local areas.

Recommendation 2: Develop and implement conlrols 10 ensure Ihal program eligibility and
reponing requiremenls are mel.

ETA agrees. Similar to other grantees, YouthBuild grantees must be thorough in determining
whcther a YOUlh is eligible to enroll in the program and in collecting and retaining sufficient
documentation of eligibility. ETA's grant management process includes a number of
components in both the National Office and Regional Ollices which provide oversee individual
grants, including YouthBuild. Regional grant oversight includes risk assessment at the start of
each YouthBui ld grant. grant review which is comprised of desk and onsite reviews as well as
linancial report reviews; and technical assistance to help grantees correct performance or
compliance problems. ETA will use the OIG's information and information from its grant
reviews to detennine what technical assistance may be requi red to improve YouthBuild grantees'
eligibilily detennination and documentalion procedures.


On Site Monituring
The O[G audit report notes thaI on-site moniloring is not occurring consislently. There
are established cdteria for conducting on-site visits to grantees, which includes one onsite visit
during Ihe period of performance. (See Attachment A.) The expectation articulated in the
Regional Administrator's standards is Ihat each granl receives a desk review every quarter, and
Ihat onsite program and perfonnance review takes place during the mid-point of a grant's period
of performance based upon the availability of resources. Federal Projecl Officers review grantee
perf0l111anCe outcomes, financial infonnation, and program narratives during quarterly desk
reviews. You!hBuild grants are three-year grants with onsite reviews generally sc heduled during
the second year depending upon sllch factors as travel funds. workload, and agency priorities.
However. grants Ihal are designated "at risk" by the Regional Office - for exanlple, a grantee
that has been awarded its first federal grant - may receive un initial onsite visit early in the grant
period. Due to increased grant oversight workloads and funding constraints, ETA is developing
an enhanced, more in-depth approach to quarterly desk and financial reviews to st rengthen
regional grant oversight.


                                                  ,


                                                        Management Controls Need to be Strengthened
                                                44                      Report No. 18-11001-03-001
                                               U.S. Department of Labor – Office of Inspector General 





Selective Service
The DIG report noted that some YouthBuild grantees we re unaware o r the selective selVice
requirement, and that others did not ensure that all program candidates were registered for
selective service prior to enrollment. ETA notes that selective service registration for 18 year old
ma les is part of the formal YouthBuild enrollment process. All Yout hB uild participants are
entered into the Web-based Case Management and Performance Management Information
System by gran tees. The Web-based Case Management and Perfonnance MIS contains an error
message (shown below) that is displayed whenever a gran tee atte mpts to enroll an 18 year-old
male and does not check the "yes" box indicating that the program candidate is registered for
Selective Service.

     Error
     Participant cannot continue with assessmen t (final step of enrollment] until Selective
     Service registration has been completed.

The assessment screen contains a hyperlink to the Selective Service registration site which
allows grantees to check the young man's status and ifnot registered, to do so immediately.

ETA will issue guidance to remind Youth Bui ld grantees about th is requ irement and the type of
documentation that is required to positively affirm a participant's Selective Service registration.
In addition, ETA also will include this information in the YouthBuild " Book of Knowledge",
which includes all YouthBuild MIS and reporting requirements.

Regula/iom·
ETA believes that substantial progress has been made to establish regulations for the YouthBuild
program. The DIG audit report states thaI "DOL has nOi issued regulations for the program."
However, the Notice of Proposed Rulemaking (NPRM) for the You thBuild program was
published for public comment in the Federal Register on August 27, 20 I O. ETA staff are
drafti ng the Final Ru le while continuing to analyze some of the more complex comments
received in response to the N PRM. The fina l rule will be published once the rulemaking process
is complcte.

Recommendmion 3: Recover (he $214,124 in questioned CUS( associated with ineligible
participllnn.

ETA plans to review each grantee's participants identified by the OIG during the audit as
·'missing eligibility documentation". As part of the standard process, grantees will have an
opportunity to provide the missing documentation. Any costs associated with participants who
are deemed ineligible after ETA review will be recovered through standard ETA procedures.

Recommendation oJ: Develup and implemenl control.j· fO en.'lIre that grantees are meeting
program goal.j· through the oversighf u/s/(I/ed goals in grantee agreements.

ETA has a " three tiered approach" for developing and meOisuring program goals. The first tier is
based upon each grantee's Statement of Work which cOlllllins the activities and performance


                                                 J




                                                        Management Controls Need to be Strengthened
                                                 45                     Report No. 18-11001-03-001
                                               U.S. Department of Labor – Office of Inspector General 





information for which the grantee is held accountable. If perionnance outcomes are not
specified in the grant application, they are negotiated after the grant award.

The second tier is that of the Government Perfonnance Results Act (GPRA) goals. The GPRA
goals for the YouthBuild program, along with the actual results from the 2007 cohort of grantees,
are listed in the following chart:

                                                                Actual Results for 2007 grantees
     Performance Measure                         GPRAGoal       asofDcccmber3 1 2010
     Placement in Education & Em 10 ment
     Credential Attainment                           .,,,
                                                    38%                    42.70%
                                                                            60.71 %
     Literac fNumcrac Gains                                                 50.25%
                                                     ""
The third tier is the program performance goals set for the overall YouthBuild program and
repl\'sent aggregate perfornlance goals -- not individual granlee goals. The YouthBuild goals
since its transfer to DOL to the present are:

               •   Placemenl in Education & Employment 70%
               •   Credential Attainment               50%
                   LiteracyfNumeracy Gains             50%
               •   Recidivism                          20%
               •   Retention in Education & Employment 75%

ETA believes that these ambitious aggregate goals have, and will continue, to motivate
YouthBuild grantees to strive for greater performance outcomes. ETA staff and the YouthBuild
technical assistance contractor provide ongoing technical assistance to grantees to help them
achieve these goals.

To track grantee perfonnance, ETA developed and implemented a Case Management
Information and Perfonnance System to ensure that rel iable perfonnance data are available for
the Youthl3uild program. ETA also provides technical assist:mce when perfonnance issues are
identified. To that end, ETA has ( I) provided 17 MIS training sessions, (2) created a data pilot
program which helped grantees focus on the use of the real-ti me participant data for decision
making and program improvement, (3) produced a monthly newsletter focused on how to use
program data, and (4) offered several data management Webinars. In addition, through its
technical assistance contract, ETA provides a help-desk to answer all data related and MIS
questions.

Recommendation 5: Del!elop and implement controls to ensure performance measures are
accuralely reported.

ETA agrees wi th the OIG on the need for strong accountability. However, ETA believes that it
has a system in place through its grant management process to detennine whether perfonnance is
accurately reported. Documentation is examined during on-site monitoring visits and questioned
when there is insufficient documentation. See Appendix A. In addition to on-site monitoring
visits where case files are examined, quarterly perfonnance reports are routinely monitored by
both ETA FPOs and National staff in order to detect data anomalies or data entry errors.



                                                 4




                                                        Management Controls Need to be Strengthened
                                                46                      Report No. 18-11001-03-001
                                               U.S. Department of Labor – Office of Inspector General 





Recommendation 6__ Develop and implement comrols to ensure participants receNe industry­
recognized cert!flcales afier compleling occllpalion skills tr(lining.

ETA believes that the necessary controls, as outlined in Appendix A, are in place to ensure that
participants receive industry-recognized credentials. As a result of these controls, ETA had
identi fied prior to the OIG audi t the two grantees cited in the OIG audit report for failing to
ensure YouthBuild participants acquired industry-recognized credentials and initiated technical
assistance to each grantee to improve participant outcomes. Thi s includes upgrading the skills of
YouthBuild construction trainers. For example, since 2008, ETA has provided 16 training
opportunities for YouthBuild grantee construction trainers to acquire certification, which enables
the trainers to help participants complete training programs and acquire the necessary skills and
levels that result in the award of industry recognized credentials.

Recommendation 7: Develop a process 10 measure the increased nllmber of affordable
permanent housing IInits as a resulf 0/ the program.

ETA agrees with this recommendation and has modified the YOUlhBuild quarterly narrative
report 10 include information on the number of affordable houses or apartments built or
renovated. To galhe r baseline data, we are col!ecting this information fo r the cohort of2007
gran tees that completed their grant period of perfom lance.

Necommendalion 8: Ensure grantees are appropriolely meeling Ihe program 25 percent
ma/ching/und requiremen/s.

ETA and the OIG agree that meeting matching requirements is an im portant requirement for
grant ees; it also brings additional resources and commitment to the local YoulhBuild program.
ETA specifies matching requirements in each YouthBuild grant agreement; it has provided
cxlensive training to YouthBuild grantees during grantee orientation sessions and webinars and
through written materials 011 malch requirements and Ihe proper documentation and val uati on of
match costs Ihroughout the life of Ihe grant. ETA infonned grantees about these training
resources in Training and Employment Notice (TEN) 49-08 and 39-09. ETA reviews gran tee
progress toward meeting Ihe match requirement after the review of the ETA 9130 financial
reports and also, during on-sile reviews. YouthBuild grantees that are slow to report or are not
reporting match receive technical assist ance. [I is important to poin t out, that grantee compliance
wi th match requirements is not measured until the period of performance has ended. ETA has
standard operating procedures for YouthBuild gmntee closeout, and compliance with the match
req uirements is addressed during closeout. If the grantee has failed to meet the required match,
COSIS are disallowed as specified in the grant agreement. ETA will review current guidance on
match and as necessary, issue a new TEN to remind grantees or their responsibility to track and
repol1 match on an ongoing basis inform them abou t the consequences offailure to comply.

Recommendation 9: Make afinal determination concerning Ihe 1768,626 in questianed costs
ooUociafed with undocumen/ed mo/chingfimding and recover amounlS undocumenied.

We appreciate the O IG auditors identification of several YoulhBuild grantees with potential COSt
concerns; we reviewed these grants, and note that the y do not expire until lune 30, 2012.



                                                  5




                                                        Management Controls Need to be Strengthened
                                                47                      Report No. 18-11001-03-001
                                              U.S. Department of Labor – Office of Inspector General 





Consistent with ETA's policy to review costs when the period of perfommnce has ended, ETA
bdieves that the S768,356 the OIG auditors have stated as unreported or unsupported is an
estim(Jte ofwhal areporentiaJ disallowed costs if the grantees do not fully comply with the match
requi rements. Thus, ETA requests that this recommendation be deleted or restructured to
Ilccurately describe the potential issue. ETA plans to revit:w the identified grantees with
questioned costs and provide additional technical assistance to help the grantees properly report
mmch and apprise them of the potential for disallowed COStS related to match requirements. ETA
will determine any costs that are disallowed during closeout should the grantee fail to meet the
required match levels.

We believe that this response addresses the O IG audit report findings and responds to the
recomlnendations.

cc: Edward C. I-/ugler




                                                6




                                                      Management Controls Need to be Strengthened
                                               48                     Report No. 18-11001-03-001
                                               U.S. Department of Labor – Office of Inspector General 





                           APPENDIX A - ETA Monito ring Procedures

Nation al Office A ctivities
In response to a GAO Repon (GAO-07-82, dated February 28, 2007) titled "YouthBuild
Program: Analysis of Outcome Data Needed to Detennine Long-Term Benefits", ETA has, in
addition to the established ETA grant oversight structure that exists to monitor all grantees, taken
numerous steps to improve the management, oversight, perfonnance, and administration of the
YouthBuild program. These steps have included the development ofa Web-based Case
Management and Performance Management Information System, a multifaceted approach to
technical assistance which includes the use ofWebinars, conferences, and a Web·based
Community of Practice. In addition, since January 2010, ETA has provided each grantee with a
contracted technical assistance coach, who provides both phone and on-site technical assistance
that. is designed to improve program performance.

The National Office Program stafTworks closely with the Federal Proj ect Officers (FPOs) in the
ETA regional offices to coordinate all technical assistance and grantee support. The National
Oflice hosts a new grantee orientation for each new cohort of grantees, which
reinforces expectations, goals and objectives of the grant award. In order to help determine
national technical assistance focus areas, ETA developed a YouthBuild Program Assessment
Tool that guides national and regional staff in conducting on-site monitoring reviews and in
determining individual grantee technical assistance needs. The tool contains guidance and
e)(pcctation~ for the Youth Build participant enrollment processes, including the collection of
documentation to support eligibility requirements. Grantees are provided with this guide prior to
their on-site monitoring review so that they can complete self·assessment in preparation for their
FPO·s review.

Negiol1(ll OffiCI! Activities

Rcgional Federal Project Officers (FPOs) are responsible for conducting both on-site and desk
reviews of grantees. Once the grantee has received the grant award package, the FPO makes
contact with the grantee to provide an overview/discussion of all the requirements contained in
Ihe award package and other YouthBuild specific guidance. The grant requirements are
discussed in detail in order 10 ensure that grantees understand their administrative and
programmatic responsibilities. This also provides the opportunity for grantees 10 ask questions
about ETA's expectations.

Employment and Training Order 1·03 (ETO 1-03) on grants management and the UnifOl·m
Administrative Requirements establish protocols to be followed from award to close out. An
established ETA Core Monitoring Guide is used by the FPOs 10 guide all on·site monitoring of
ETA grant programs. The Core Monitoring Guide provides a consistent framework and staning
poinl for all on-site grant monitoring responsibilities by ETA and was developed based on the
premise that there are essential core functions that must be in place in order for any grantee to
operate an ETA grant within the boundaries of acceptable practices that are established primarily




                                                 7




                                                        Management Controls Need to be Strengthened
                                                49                      Report No. 18-11001-03-001
                                                        U.S. Department of Labor – Office of Inspector General 





by law, regulation, and/or govemment-wide rule.' On a quanerly basis, FPOs in the regional
offi ces conduct a desk review to examine all aspects of the grant award. Grantees determined to
be "at risk" are identified in the Grants Electronic Management System (GEMS) and a "visit~ is
required (on site, phone contact or expanded "desk review/audit".) Before going on
site, FPOs monitor the required quarterly progress narrative updates and perfonnance reports and
are in contact with grantees as necessary. Documentation requirements are examined during on­
sile monitoring visits and questioned when they are insufficiently met. In addition, the
contracted technical assistance coaches that are assigned to each gran lee provide the FPOs with
monthly reports that summarize phone and on-site coaching and highlight any grantee issues.




I Page 51 of the Core Monitoring Guide outlines specifics with regard to documentation on participant eligibility
and examining participan t eligibility and monitor documentation on of the pri mary responsibilities included in the
guide.


                                                          8




                                                              Management Controls Need to be Strengthened
                                                         50 
                 Report No. 18-11001-03-001
                                       U.S. Department of Labor – Office of Inspector General 



                                                                               Appendix E
Acknowledgements

Key contributors to this report were:
 Michael Yarbrough, Audit Director
 Dwight Gates, Audit Manager
 Freddie Hall, Auditor-in-Charge
Team Leaders / Staff:
 Mark Sanderson / Daniel Rhodes
 Velma Ivey / Sheila Lay / Charmane Miller
 Laura Brockway / Nicholas Cumby / Gloria Scotland
 Sharon Newby / Lorenzo Thornton / Travis Williams
Report Reviewer
 Alvin Edwards
Statistician
 Ajit Buttar




                                              Management Controls Need to be Strengthened
                                        51                    Report No. 18-11001-03-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                    Management Controls Need to be Strengthened
              52                    Report No. 18-11001-03-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone: 202-693-6999
          1-800-347-3756

Fax:      202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor 

         200 Constitution Avenue, N.W. 

         Room S-5506 

         Washington, D.C. 20210 

